WAIVER

Supreme Court of the United States

No. 20-1540
Victor J, Edney v Eondra Lamone Hines, et al,
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
O Tam filing this waiver on behalf of all respondents.

Tonly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Officer Jordan Wenkman - Respondent, Officer Bobby King - Respondent,

 

Sergeant David Conley - Respondent and Sergeant Keith Vaughan - Respondent

 

Please check the appropriate box:

Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

O Iam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form

to: SupremeYourt, Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature.

 

 

 

 

 

 

Date; May 28, 2021
(Type or print) Name Roy L. Barrett
Mr. OMs. O Mrs, 0 Miss
Firm Naman Howell Smith & Lee, PLLC
‘Address 400 Austin Ave., Suite 800
City & State Waco, Texas . - Zip /6703
Phone (254) 755-4100 Email Barrett@namanhowell.com

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

ect Victor J. Edney Jr. Eondra Lamone Hines
424 Clay Ave. # 853 2609 MacArthur Dr.
Waco, Texas 76703 Waco, Texas 76708

Petitioner Respondent
